         U.S. Department of the Interior
           Office of Inspector General

     PROGRAM ASSESSMENT RATING TOOL
          PROGRESS EVALUATION




       NATIONAL PARK SERVICE
 LAND AND WATER CONSERVATION FUND
       STATE GRANTS PROGRAM



Report No. Y-RR-NPS-0010-2007        February 2008
                                                           CONTENTS
Introduction ......................................................................................................................................1

Program Overview ...........................................................................................................................2

Observations and Suggestions .........................................................................................................3
      Performance .........................................................................................................................5
      Reporting............................................................................................................................12
      Independent Evaluation .....................................................................................................13

Appendices
      Appendix A: History and Use of the PART
      Appendix B: Sites Visited or Contacted
      Appendix C: OMB PART Questions with “NO” Answers
                  as they relate to our Observations and Suggestions
      Appendix D: Table of Suggestions
      Appendix E: Benchmarking Outcome Measurements




Acronyms and Other Reference Terms

DOI ......................................................................................................... Department of the Interior
FRP .............................................................................................. Farm and Ranch Land Protection
FY ................................................................................................................................... Fiscal Year
GAO ...........................................................................................Government Accountability Office
LWCF ...................................................................................... Land and Water Conservation Fund
NHP................................................................................................... National Historic Preservation
NPS ................................................................................................................ National Park Service
OIG ....................................................................................................... Office of Inspector General
OMB .......................................................................................... Office of Management and Budget
PART ........................................................................................... Program Assessment Rating Tool
Program ..................................................................... Land and Water Conservation Fund Program
RND ........................................................................................................ Results Not Demonstrated
RWWGL ................................................................ Rural Water and Wastewater Grants and Loans
SCORP ............................................................ Statewide Comprehensive Outdoor Recreation Plan
States ................................ States, the District of Columbia, and the United States Insular Areas of
        America Samoa, Guam, the Northern Mariana Islands, Puerto Rico, and the Virgin Islands
UPARR ................................................................................ Urban Parks and Recreation Recovery
USDA.............................................................................................. U.S. Department of Agriculture
                                  INTRODUCTION
                   WHY WE DID THIS PROGRESS EVALUATION
The Deputy Secretary of the Department of the
Interior (DOI) asked the Office of Inspector General
(OIG) to evaluate the progress made in programs           What is the PART?
designated Results Not Demonstrated (RND) by
the Office of Management and Budget (OMB).                Federal agencies use the
OMB uses the PART to make these designations.             Program Assessment Rating
                                                          Tool (PART), a standard
In consultation with officials in the DOI Offices of      questionnaire, to submit
Budget and of Planning and Performance                    information on federal programs
Management, we selected the Land and Water                to OMB. OMB examiners assess
Conservation Fund (LWCF) State Grants Program             programs based on responses to
(Program) for evaluation. We based the selection on       YES/NO questions in the areas
a number of criteria, including the Program’s budget      of program purpose and design,
and how long the Program has been in RND status.          strategic planning, program
                                                          management, and — most
OMB designated the Program RND in 2003 because            importantly — program results.
the National Park Service (NPS) lacked adequate
performance measures for the Program, failed to           OMB uses the information to
clearly demonstrate Program results, and had not          determine program effectiveness,
taken meaningful steps to address the Program’s           to recommend improvements for
management deficiencies.                                  rated programs, and to follow up
                                                          on those improvements.

   OBJECTIVES AND METHODOLOGY                             The ExpectMore.gov Web site
                                                          publishes PART results.
Our objectives were to determine what progress            See Appendix A for more
NPS has made toward implementing OMB’s PART               information on the history and
recommendations and to provide observations and           use of the PART.
suggestions that the Department and NPS can use in
preparing for upcoming PART reviews.

To meet these objectives, we interviewed and conducted visits with DOI, NPS, and State-level
officials (see Appendix B); reviewed and analyzed Program documentation; and completed a
limited review of related literature in the fields of recreation planning, performance
measurement, and grants management. We conducted our review in accordance with the
“Quality Standards for Inspections” established by the President’s Council on Integrity and
Efficiency, and we based our suggestions on OMB’s 2007 PART guidance.
                        HOW WE STRUCTURED THIS REPORT
Following a brief Program overview, we discuss Program performance, reporting, and
independent evaluation and offer 12 suggestions for Program improvement. Appendix C relates
these topics to the PART questions for which the Program was unable to satisfy OMB
requirements. Appendix D lists the suggestions detailed in this report.



                              PROGRAM OVERVIEW
The Land and Water Conservation Fund Act of 1965
established federal programs designed to strengthen the
health and vitality of U.S. citizens by preserving and
developing outdoor recreation resources. The Act
supports federal land acquisition through both DOI and
the U.S. Department of Agriculture. It also authorizes
DOI to provide federal assistance grants to the 50 States,
the District of Columbia, and 5 Insular Areas (the States).
Each year, the Congress appropriates funds from the
LWCF for apportionment to the States through the
LWCF State Grants Program. Funding for the costs of
Program administration is separately appropriated.

On behalf of the Secretary of the Interior, the NPS State
                                                                         Program Logo
and Local Assistance Division administers the Program.
Through the Program, NPS provides matching grants to
States and recognized Indian tribes for public outdoor recreation projects. NPS apportions grant
monies to States using an established formula, with payments not to exceed 50 percent of the
total cost of projects. These funds support planning, acquiring, and developing land and water
recreational areas and related facilities. Sites acquired or developed with LWCF funds are
preserved for public outdoor recreation in perpetuity.

Since its inception, the Program has contributed over $3.7 billion — funding that has been
matched with State and local contributions for a total investment of more than $7.4 billion.
Through fiscal year (FY) 2007, LWCF grants supported approximately 40,000 projects. Over
98 percent of these grants funded the acquisition of open space for State- and locally-operated
parks and the development or redevelopment of outdoor recreation facilities. The remaining
2 percent of LWCF grants supported State and local planning efforts. As part of Program
requirements, each State that applies for Program funds must submit a statewide comprehensive
outdoor recreation plan (SCORP). The SCORP identifies investment priorities and provides a
practical tool for coordinating State outdoor recreation and open space conservation programs.
Through the SCORP development process, State-level officials provide local governments and
private citizens the opportunity to take part in outdoor recreation planning.



                                                -2-
Over the years, Program funding levels have fluctuated considerably, as shown in the graph
below. In fact, several years passed in which no new grant monies were appropriated. Most
recently, federal funding has declined from $140 million in FY2002 to $25 million in FY2008.
This decrease is exacerbated by
the discontinuance of grant
funding for local parks and
recreation agencies through a
closely allied program for Urban
Park and Recreation Recovery
(UPARR). The UPARR
Program had made available an
average of $12 million per year
between FY1979 and FY2002,
but the Congress has not
appropriated any additional
UPARR funds since then.                            OIG graph based on data provided by NPS

A staff of 23 (full-time equivalent) employees administers the LWCF Program through a central
office in Washington, DC, and four regional offices. This represents a staff reduction of about
30 percent over the last 2 years. These employees face further uncertainty because the
Administration has not requested new grant funding for the Program.

The Congress has continued to appropriate some funds, however, and has also enacted the Gulf
of Mexico Energy Security Act (GOMESA) to provide a long-term solution. GOMESA
stipulates that certain oil and gas lease revenues be made available to the Program for
apportionment to the States. Based on projections provided by officials from NPS and the
Minerals Management Service, we understand that this funding will amount to an average of less
than $3 million per year through FY2017, after which funding levels are expected to rise
significantly. It is clear, therefore, that without further appropriation the Program is poised to
experience a temporary decline in funding over the next several years, a period to be followed by
substantial growth.



                   OBSERVATIONS AND SUGGESTIONS
Based on its 2003 PART review, OMB made a number of recommendations to improve the
Program. In the PART report, OMB called on NPS officials to 1) develop appropriate
performance measures and targets, 2) establish more effective means of reporting performance
information, and 3) institute independent evaluation of the Program. We learned that NPS has
made some progress toward implementing these recommendations. In this report, we summarize
key actions taken to date and offer suggestions to further strengthen Program management.

During our progress evaluation, we also came to understand that a significant breakdown in
communications occurred between NPS officials and the OMB examiner after the original PART
assessment. For example, the OMB examiner has indicated that NPS failed to provide sufficient
detail relating to the Program’s existing output and efficiency measures, such as definitions of


                                               -3-
key terms and criteria for validating performance data. NPS officials indicated they have not
received sufficient feedback from the OMB examiner on their proposals and perceived
shortcomings.

In addition, there is a clear difference in perspectives regarding the role of Departmental officials
as intermediaries in the communications process. Departmental officials do need to be kept
abreast of issues as they are addressed, but we believe the PART review and ensuing
performance improvement initiatives can succeed only if OMB and NPS officials accept their
shared responsibility to maintain direct and open dialogue.

                                             OIG Suggestion 1
               Program officials should provide appropriate documentation to the assigned
               OMB examiner as improvement actions are implemented and discuss with
               that examiner the adequacy of the evidence provided. NPS, DOI, and OMB
               officials should then work with Program officials to collaboratively decide
               the next steps required to improve Program performance.


                                       PERFORMANCE
                                          For PART purposes, a complete set of performance
 OMB Recommendations                      measures would address:
                                             1) outcomes — the external results and public
 Coordinate with State partners                 benefits intended when carrying out program
 to identify appropriate                        activities,
 performance measures,                       2) outputs — the products and services delivered
 consistent with the DOI                        by the program, and
 strategic plan.                             3) efficiency — the economical management of
                                                resources to produce outputs and achieve
 Implement new procedures to                    outcomes.
 measure and achieve
 efficiencies in workload                NPS established a workgroup in 2004 that included NPS
 performance.                            and State officials and a representative of the National
                                         Recreation and Park Association. The workgroup
  Work with States to establish          advised Program officials on how to respond to OMB’s
  baselines and set targets for          PART recommendations and focused on the
  performance measures.                  development of performance goals and measures. The
                                         workgroup did not develop any measure that OMB
                                         considered an “outcome” measure. NPS officials have
adopted three output measures recommended by the workgroup. In addition, these officials have
instituted an efficiency measure focused on the timeliness of grant application processing.

In this section, we discuss each of the three categories of performance measurement as they
pertain to the LWCF Program. We also address the need for NPS officials to monitor Program
results. In Table 2, on page 11, we summarize this discussion by showing the Program’s existing
measures and our suggested changes.


                                                -4-
Outcome Measurement
OMB PART guidance requires the identification of key outcome measures for each federal
program. NPS officials, however, have been unsuccessful in developing outcome measures
acceptable to the OMB examiner for the LWCF Program.

While the Program’s ultimate purpose is to improve human health and vitality, the OMB
examiner acknowledged that direct measurement of public wellness falls outside the purview of
NPS. The OMB examiner expressed interest in alternative measures that track whether there is
increased public use of outdoor recreation resources that the Program supports.

To explore this possibility, NPS management officials could consider requiring grant recipients
to report visitation statistics. Visitation is an important measure for the National Park System.
NPS reports that national parks were visited for recreation purposes an estimated quarter of a
billion times every year since 1985. This number represents individual visits, with some people
possibly visiting multiple parks or the same park multiple times.

However, implementing a reliable visitation measure Program-wide would require extensive
validation, and we think it is unreasonable to expect NPS to replicate the approach outside the
National Park System or to impose such a burden on local parks authorities. Studies that are
limited in geographic scope and duration might provide useful insights as part of a broader
evaluation strategy, but counting — or reliably estimating — the number of visitors to the tens of
thousands of LWCF project sites nationwide would be
unlikely to be cost-effective.

In an effort to identify other alternatives appropriate
for the Program, we analyzed the outcome measures
from three similar grant programs that received PART
ratings from Adequate to Effective. See Appendix E
for details of our analysis. We found that, for one of
the grant programs, the performance measures focus
on the total population served by the program, an idea
that may be useful and meaningful to the LWCF
Program.

Where direct measurement of program outcomes is
not feasible, OMB’s PART guidance allows for the
acceptance of proxy measures, as long as there is a
logical connection between the proxy and the end
outcome or purpose of the program. According to the
American Journal of Preventive Medicine, distance
from home is closely associated with the likelihood of       Walking Trail in Piedmont Park
public use of open space, while several studies                  — Atlanta, Georgia —
correlate park use to public health benefits. The                                     OIG Photo




                                               -5-
number of people who reside within a specified distance of new LWCF projects could therefore
serve as a proxy measure for public use of recreation resources. We depict the logical
connection to the Program purpose in Table 1.

            Key Program         Immediate                Intermediate               End                     Policy
              Output            Outcomes                   Outcome                 Outcome                 Objective


                  Measure Performance                           Validate Effects through Program Evaluation

                              Growth in the
                            Federally-Protected
                             Recreation Estate
                              as measured by
                                                                                              leading to
                              Acres Protected                                                             Improved
                                                                                                      Health and Vitality
                                                                    to enable
                                                                                   Increased
            The Program                                                         Physical Activity
           awards Grants                 to facilitate
                                                     Public Use of
                                                   Outdoor Recreation
                                                       Resources


                             Public Access to
                            Outdoor Recreation
                                 Resources
                              as measured by
                             Population Served




                                          Table 1. Program Logic                                            OIG Staff

Program officials should be able to incorporate this population-served measure with relative ease
because they already collect data that includes the geographic coordinates of each project site.
With these coordinates, U.S. Census Bureau data on the urban and rural populations around each
site (within the 50 states and the District of Columbia) are readily available. The data can be
found using the Missouri Census Data Center’s “Circular Area Profiles” tool, which can be
found online at http://mcdc2.missouri.edu/websas/caps.html.

To ensure consistent data, Program officials would need to —

   1) select an appropriate radius, in miles;
   2) determine whether grantees should provide figures from the latest decennial
      census or from the “American Community Survey,” which the U.S. Census
      Bureau uses to update its estimates;
   3) develop a protocol to address the possibility of double-counting in the event that
      selected projects serve overlapping populations;
   4) decide whether to exclude from the measures the five Insular Areas eligible for
      Program funding or to define other means by which these areas may be included;
      and
   5) double-check a sample of the figures provided by grantees before aggregating
      data by State.


                                                            -6-
Measuring results based on population could drive State officials to concentrate Program
investments in urban areas in order to maximize the apparent results. In some cases, this may be
appropriate; however, there is a risk that more pressing needs in rural communities would thus be
neglected. To reduce the risk of this unintended consequence, Program officials and their
State-level counterparts should set separate targets for urban and rural population subsets.


                                              OIG Suggestion 2
               Program officials should use estimates of the total population within a
               specified radius of new LWCF project sites as a proxy for potential public
               use, setting separate targets for urban and rural population subsets.



Output Measurement

The Program’s existing output measures focus on the preservation and development of outdoor
recreation resources. However, these measures reflect the actions of grant recipients and not of
NPS directly. The accomplishments are external results influenced by federal activity, and we
therefore interpret these measures to be the immediate outcomes of the Program. We identified
the potential outputs of the Program to be 1) SCORPs approved, 2) funds apportioned, 3) grants
awarded, and 4) inspections completed, because these are the direct products of NPS activities.
Of these, the key output is grants awarded— directly enabling Program beneficiaries to deliver
                                            the outcomes that the Program is designed to achieve.


                                          One measure that Program officials currently report
                                          is the number of new acres protected each year
                                          (whether through acquisition, investment in
                                          development, or rehabilitation of facilities). This
                                          permanent federal protection of a national recreation
                                          estate distinguishes the LWCF Program from other
                                          State- or locally-funded efforts, and we believe the
                                          total area protected by the Program is as significant as
                                          its annual contribution. If Program officials were to
                                          implement a cumulative measure, they would need to
  Land Acquired for Flo Ware Park         be careful to avoid double-counting acres that have
     — Seattle, Washington —              already been protected if new development or
                              OIG Photo
                                          rehabilitation grants are subsequently awarded.


                                              OIG Suggestion 3
               Program officials should establish a long-term output measure of the total
               acreage protected since inception of the Program.


                                               -7-
Program officials also currently report to OMB two measures related to the number of parks
where development or rehabilitation projects have been funded. The OMB examiner has
expressed some skepticism about these measures and the clarity of the underlying definitions and
criteria. We agree that the use of unclear terminology can lead to misleading performance
information. For example, the apparent number of parks could be increased administratively by
simply designating different areas of a contiguous tract as separate park units — a county park
adjacent to a town park, for instance. Arguably, this scenario would not directly contribute to
improved public access, but would increase apparent results as measured by the number of parks.


To address this issue, we suggest supplementing these measures with a measure of the number of
LWCF parkland acres enhanced. “Acre” is an easily understandable term with a standard
meaning that would apply in any jurisdiction.


                                              OIG Suggestion 4
              Program officials should supplement existing measures of the number of
              parks enhanced to also report annual results in terms of acreage.


For those measures reported to OMB, State representatives set the FY2006 output targets.
Program officials collected year-end data on actual accomplishments and reported the results to
OMB. Therefore, officials from both OMB and NPS agree that the recommendation to work
with States to establish baselines and set targets for performance measures is complete.


Due to the planning challenges associated with the fluctuation in yearly funding levels, however,
NPS officials have discontinued the use of State-set targets. They have, instead, proposed
national targets through FY2012. The OMB examiner indicated to us that performance targets
could be tied to certain reasonable assumptions about future funding levels. One such
assumption might be that recent appropriations levels will remain constant; another might be that
no new funding will be appropriated, as proposed in the President’s recent budget requests. NPS
officials should be prepared to adjust their planning assumptions and performance targets as the
Congress takes action on bills affecting the Program.


                                              OIG Suggestion 5
              NPS officials should document the planning assumptions used to set
              performance targets and consult with the OMB examiner to determine
              whether the Program’s proposed targets are sufficiently ambitious to meet
              OMB’s PART expectations.




                                              -8-
Efficiency Measurement

In addition to the output measures we discuss above, Program officials currently report to OMB
on workload performance efficiency. Specifically, they identify how long it takes to process a
grant application, from receipt to approval, as recorded in the Program database. OMB has
accepted this measure for other grant programs that received successful PART ratings.

To help reduce application processing time, NPS created the “Proposal Description and
Environmental Screening Form,” which incorporates federal requirements for grant applicants.
Program officials say they have cut processing time by more than half since providing a baseline
for the original PART review, and they anticipate sustaining this new level of performance
(assuming a degree of stability in administrative funding and the number of grant applications
received). NPS is also revising its grants manual to incorporate guidance to the States on how to
properly complete a grant application.

                                              OIG Suggestion 6
               Program officials should provide the OMB examiner evidence that supports
               the performance baseline they asserted for timely processing of grant
               applications and of the efficiency gains achieved. Program officials should
               also share updated parts of the grants manual and the newly developed
               screening form with the OMB examiner.


Monitoring Program Results

Regardless of what performance measures are in place, managers of grant programs have a
responsibility to monitor results. NPS officials, however, told us they no longer conduct reviews
of State programs, including project inspections and file reviews. Program officials attribute the
discontinuance to staffing and funding reductions.

NPS now relies on project inspections conducted by the States. NPS officials in some regions
are also using aerial photography and county records. An ongoing imaging project enables NPS
staff to determine whether development has occurred within the boundary lines of LWCF project
sites and to verify or update records accordingly. Program officials report that imaging has been
completed in at least one region.

NPS has developed an annual performance measure for the number of LWCF projects inspected
and determined to be open for public, outdoor recreation use. Currently, the States conduct all of
these inspections. We believe NPS officials should have responsibility for conducting at least a
portion of the inspections and should clearly report the extent to which they fulfill this
obligation. Supplementing the existing measure of projects inspected with a new measure of the
percentage of inspections conducted by NPS would help the OMB examiner, and others, to track
efforts to expand Program monitoring. If NPS were to re-institute its inspections, a cost
efficiency measure could also be established to monitor the average cost per inspection.



                                               -9-
We believe NPS needs to strengthen its monitoring and oversight of Program results. An
effective monitoring strategy would involve completing the imaging projects for all regions, as
well as combining State-certified inspection reports and NPS (or independent) inspections and
records reviews. This would provide greater assurance that LWCF sites and facilities are
protected and remain accessible for public recreation.

                                             OIG Suggestion 7
               NPS officials should strengthen Program monitoring and develop
               performance measures of the percentage of inspections conducted by NPS
               and of the average cost per inspection.

In addition to Program inspections, full implementation of a “maintenance-of-effort”
requirement for the LWCF Program should provide assurance that Program funding is, indeed,
expanding investment in outdoor recreation resources. Under a maintenance-of-effort
agreement, grant recipients would commit to use grant funds to increase total spending on
recreation and not to cut funding for recreation from other sources. A number of grant programs
include such a requirement to ensure that grant recipients use federal funds for the intended
purposes without offsetting the federal investment through other changes in spending. For
example, the Community Mental Health Services grant program administered by the Department
of Health and Human Services (and rated Adequate by OMB) requires that States maintain State
funding for community mental health services at a level that is not less than the 2-year average.

The LWCF Program includes a general statement of intent in its Grants Manual that
“…assistance granted from the Fund will result in a net increase . . . in a participant’s outdoor
recreation…” and that the grant moneys “…will be added to, rather than replace or be substituted
for, State and local outdoor recreation funds.” However, there is no specific criterion or funding
formula on which to base enforcement. Therefore, we do not suggest a related performance
measure at this time, but instead call for officials to consider whether a more stringent
maintenance-of-effort requirement would improve Program accountability over the long term.

                                             OIG Suggestion 8
               DOI officials should consider strengthening the Program’s maintenance-of-
               effort requirement.


Summary of Suggested Performance Measures
Table 2 summarizes current performance measures developed and reported by NPS, as well as
the changes that we suggest. These changes, if implemented, would provide a consistent unit of
measurement (acreage) for Program outcomes, and shift the focus from the methods employed
by Program beneficiaries (acquisition, development, rehabilitation) to the intended results
(expansion of the LWCF estate, enhancement of acreage in the existing LWCF inventory). In
the table, we interpret some of the Program’s existing output measures to instead be immediate
outcomes of the Program’s key output — grants awarded — and suggest that they be reclassified
accordingly.




                                              - 10 -
Types of              Current                     Suggested          OIG-Suggested
Measures            NPS Measures                   Actions             Measures

                                                          Cumulative number of acres
Long-Term                                         ADD NEW
                                                          protected for public outdoor
 Outcome                                          MEASURE
                                                          recreation use

             Number of new acres                              Number of new acres
                                                   RETAIN
             protected                                        protected


                                                  ADD NEW Number of existing LWCF
                                                  MEASURE acres enhanced

             Number of parks enhanced                         Number of parks enhanced
Annual
             through development or                           through development or
Outcome
             rehabilitation                                   rehabilitation
                                                   RETAIN
             Number of parks where new                        Number of parks where new
             outdoor recreation facilities                    outdoor recreation facilities
             were developed                                   were developed

                                                  ADD NEW Population served by new
                                                  MEASURE LWCF grants

             Number of LWCF projects                          Number of LWCF projects
             inspected and determined to                      inspected and determined to
                                                   RETAIN
             be open for public outdoor                       be open for public outdoor
 Annual      recreation use                                   recreation use
 Output
                                                              Percentage of inspections
                                                    ADD
                                                              conducted by NPS


                                                  ADD NEW Average unit cost per
                                                  MEASURE inspection conducted by NPS
 Annual
Efficiency
             Average grant application                        Average grant application
                                                   RETAIN
             processing time                                  processing time

                      Table 2. Program Performance Measures




                                         - 11 -
                                         REPORTING

                                        Following the 2003 OMB PART assessment, NPS
  OMB Recommendations                   officials began to publish an annual summary of
                                        Program accomplishments, including a series of project
  Establish an effective reporting      profiles to highlight LWCF-supported parks in a number
  process to show national              of States. The report provides data on key Program
  results.                              outputs. NPS officials collect these data using the
                                        Program’s newly revised “Description and Notification
  Prepare an annual report that         Form.” This form serves as a key tool to standardize
  uses performance measures to          data collected from the States. Much of this information
  show program results                  is reported only in terms of national totals in the annual
  nationally and by State.              report, while the NPS Web site includes data specific to
                                        each State and county.


Recent annual reports, though useful, do not include target information for the reported
measures. Thus, the general reader is unable to tell whether the Program is achieving its goals.


                                               OIG Suggestion 9
               Program officials should validate performance targets each year, based on
               the level of funding approved. At the end of the year, Program officials
               should compare national results to these targets in the Program’s annual
               report and discuss the reasons for any significant shortfalls.


In addition to output data, the annual reports provide an estimate of States’ unmet needs, in
monetary terms. Although SCORPs identify and prioritize outdoor recreation resource needs,
the extent to which these plans are used in estimating each State’s unmet needs is unclear. From
year to year, figures reported to NPS for the annual report have fluctuated significantly and
without explanation. In the 2006 report, 16 States more than doubled their estimate of unmet
needs from the previous year.


                                              OIG Suggestion 10
               Program officials should work with State representatives to standardize the
               method for estimating unmet needs. The method should recognize the
               States’ lead role in setting investment priorities and also satisfy OMB’s
               interest in validating the need for continued federal funding.


The assessment of unmet needs is important because the LWCF Act requires that a significant
percentage of the Program’s funds be apportioned on the basis of need. In addition to publishing
the States’ estimates, the Program requires each State to evaluate demand for and supply of


                                              - 12 -
outdoor recreation facilities in its SCORP. However, NPS does not use this information in
apportioning discretionary funding. Instead, officials base the annual apportionment on total and
urban population figures provided by the U.S. Census Bureau. Over time, improvements in
needs assessment and performance reporting should provide a basis for more effective resource
allocation.


                                               OIG Suggestion 11
               Program officials should consider States’ needs and performance when
               apportioning discretionary funds.




                              INDEPENDENT EVALUATION

                                         OMB’s 2007 PART guidance requires that independent
                                         evaluations be conducted on a regular basis, as
  OMB Recommendation                     appropriate to the needs and resources of specific
                                         programs. One approach to meet the requirement might
  Determine a process and
                                         be to contract for an evaluation that is Program-wide in
  schedule for an independent
                                         scope and that broadly addresses the issue of overall
  evaluation of the program.
                                         effectiveness. In fact, the OMB examiner has indicated
                                         that an independent evaluation demonstrating Program
                                         effectiveness might help NPS avoid the anticipated
decline in Program funding. This presents a quandary for Program officials because they do not
have the administrative funds to pay for such an endeavor.


An alternative approach would be to ask the Government Accountability Office (GAO) to fund
and schedule a comprehensive one-time effort. While such an effort may be feasible, we note
that a regular schedule of more focused efforts might also be used to satisfy evaluation
requirements. OMB guidance requires examiners to consider not only the independence, scope,
and quality of program evaluation, but also the frequency of evaluative efforts. A single
evaluation will not fulfill this requirement unless it is coupled with credible plans to repeat the
effort on a periodic basis or to support it with other evaluative efforts over time.


NPS could adapt one such focused effort, which is described in the National Park System
Advisory Board report titled, “Health, Recreation, and Our National Parks — Addressing the
Role of National Parks to Promote and Provide Healthful Recreational Opportunities: An
Outcome-Based Approach.” This report includes a proposal for a series of pilot projects at
selected national parks to test and provide continued validation of the premise that parks
contribute to healthy lifestyles. If NPS were to implement the proposal, it might be possible to
expand the scope of the studies to include selected LWCF project sites as representative of
community-based recreation opportunities. Such an endeavor could add to the existing body of
knowledge that links the provision of recreation spaces to increased physical activity and


                                               - 13 -
improved public health. At the same time, it could help NPS officials better understand and
articulate the respective roles of national and community-based parks.


                                             OIG Suggestion 12
              NPS officials should a) pursue the possibility of a GAO review of the
              Program and b) explore opportunities to include LWCF-supported parks in
              studies of how well the National Park System contributes to the achievement
              of DOI’s recreation objectives.

Independent evaluation — together with improved monitoring, more convincing needs
assessment, and better performance information — should strengthen the Program’s position in
justifying its funding requests. It should also provide information useful for planning future
Program investments.




                                             - 14 -
                            APPENDIX A:
                    HISTORY AND USE OF THE PART
Planning and performance monitoring are required by law. In 1993, the Congress found
federal managers to be “disadvantaged in their efforts to improve program efficiency and
effectiveness, because of insufficient articulation of program goals and inadequate information
on program performance.” The Government Performance and Results Act (Public Law 103-62),
or GPRA, was passed to promote a focus on results by requiring federal agencies to engage in
strategic planning and performance reporting.
Objectives and results of federal programs are assessed during budget formulation. The
“President’s Management Agenda,” which includes a U.S. Government-wide initiative to
improve budget and performance integration, was published in 2001. The Agenda calls for
agencies to monitor program performance and to incorporate performance review into budgetary
decision-making.
To support this initiative, the Office of Management and Budget (OMB) instituted a new activity
within the context of budget formulation. OMB uses a standard questionnaire called the
Program Assessment Rating Tool (PART) to engage federal programs in a review of program
design, strategic planning, program management, and the achievement of results that
demonstrate value for the taxpayer. Through the PART process, OMB rates programs as
Effective, Moderately Effective, Adequate, or Ineffective. Alternatively, OMB deems programs
that are unable to provide reliable performance information (thus precluding assignment of a
program rating) Results Not Demonstrated and recommends establishment or improvement of
mechanisms for performance measurement.
                                                  PART Ratings for DOI    Number of    Percent of
OMB has found that many DOI programs                Programs, 2002-2007     Programs    Programs
lack performance information. Of the 72          Effective                        8         11
                                                 Moderately Effective           23          32
Department of the Interior programs assessed
                                                 Adequate                       25          35
between 2002 and 2007, OMB rated only            Ineffective                      0          0
eight programs (11 percent) Effective and          Results Not Demonstrated     16          22
placed 16 programs (22 percent) in the                              TOTAL       72         100
category Results Not Demonstrated.
Department of the Interior programs assessed through the PART process reflect over $9 billion
dollars in annual budget authority. Approximately one quarter of this spending is associated
with programs that lack reliable performance information.
PART findings can be used to 1) justify termination or substantial curtailment of federal
programs, 2) support legislative or fiscal enhancements, or 3) promote management
improvements. OMB publishes PART results on its ExpectMore.gov Web site, together with
recommended improvement actions for every program it has assessed. Agency officials and
program managers are expected to follow up on these recommendations and to keep OMB, and
ultimately the public, apprised of progress through updates of the information posted to
ExpectMore.gov and through internal communications. OMB then reassesses programs on
schedules developed in consultation with responsible agencies.
                          APPENDIX B:
                  SITES VISITED OR CONTACTED
                                NPS or Departmental
                                        State and Local Assistance Division
                                                 Washington, D.C.
National Park Service
                                                 Strategic Planning
                                                 Washington, D.C.
 Department of the                           Planning and Performance
     Interior                                    Washington, D.C.

                                     Project Visits
                                   Various parks in the cities of Colony, Cullman,
      Alabama
                                         Decatur, Hartselle, and Priceville
                                     McKinnley, William Land, and Discovery
     California
                                               Parks in Sacramento
      Georgia                    Piedmont and Centennial Olympic Parks in Atlanta

       Idaho                        Barber, Baggley and Ivywild Parks in Boise
                          South Westnedge Park in Portage, and Prairie View, Upjohn and
     Michigan
                                      Verberg River Parks in Kalamazaoo
                        Sand Harbor State Park in Lake Tahoe, Galena Creek Regional Park in
      Nevada
                                 Reno, and Incline Village Park in Incline Village
                            Flo Ware Park and Arboretum Waterfront Trail Development
    Washington                        in Seattle, Seahurst Park in Burien, and
                                           Van Doren’s Landing in Kent
                                  Others Contacted

                               States of Florida and Virginia
                          U.S. Office of Management and Budget

                                     Other Visits
                         National Recreation and Park Association
                                      Public Policy
                                    Washington, D.C.
                                    APPENDIX C:
      OMB PART QUESTIONS WITH “NO” ANSWERS
                    AS THEY RELATE TO
             OUR OBSERVATIONS AND SUGGESTIONS
                                                                             Subsection(s)
                PART Questions with “NO” Answers
                                                                             in this Report
1.4 Is the program design free of major flaws that would limit the
    program’s effectiveness or efficiency?

2.1 Does the program have a limited number of specific long-term
                                                                            Performance and
    performance measures that focus on outcomes and meaningfully
                                                                               Reporting
    reflect the purpose of the program?

2.2 Does the program have ambitious targets and timeframes for its
    long-term measures?

2.3 Does the program have a limited number of specific annual
    performance measures that demonstrate progress toward achieving
    the program's long-term measures?                                        Performance
2.4 Does the program have baselines and ambitious targets and
    timeframes for its annual measures?

2.5 Do all partners (including grantees, sub-grantees, contractors, cost-
                                                                            Performance and
    sharing partners, etc.) commit to and work toward the annual and/or
                                                                               Reporting
    long-term goals of the program?

2.6 Are independent and quality evaluations of sufficient scope and
    quality conducted on a regular basis or as needed to support program      Independent
    improvements and evaluate effectiveness and relevance to the               Evaluation
    problem, interest, or need?

2.7 Are Budget requests explicitly tied to accomplishment of the annual
    and long-term performance goals, and are the resource needs
    presented in a complete and transparent manner in the program's
    budget?                                                                  Performance

2.8 Has the program taken meaningful steps to correct its strategic
    planning deficiencies?

3.1 Does the agency regularly collect timely and credible performance
    information, including information from key program partners, and          Reporting
    use it to manage the program and improve performance?
                                                                            Subsection(s)
                PART Questions with “NO” Answers
                                                                            in this Report
3.2 Are Federal managers and program partners (grantees, subgrantees,
                                                                           Performance and
    contractors, cost-sharing partners, etc.) held accountable for cost,
                                                                              Reporting
    schedule and performance results?

3.4 Does the program have procedures (e.g., competitive sourcing/cost
    comparisons, IT improvements, appropriate incentives) to measure
                                                                            Performance
    and achieve efficiencies and cost effectiveness in program
    execution?

3.7 Has the program taken meaningful steps to address its management
    deficiencies?

3.BF2. Does the program collect grantee performance data on an annual         Reporting
    basis and make it available to the public in a transparent and
    meaningful manner?

4.1 Has the program demonstrated adequate progress in achieving its
    long-term outcome performance goals?
                                                                            Performance
4.2 Does the program (including program partners) achieve its annual
    performance goals?
                           APPENDIX D:
                       TABLE OF SUGGESTIONS

Number                                Suggestion                                   Page

                              Overall PART Process
         Program officials should provide appropriate documentation to the
         assigned OMB examiner as each improvement action is implemented
         and discuss with that examiner the adequacy of the evidence
  1                                                                                 4
         provided. NPS, DOI, and OMB officials should then work with
         Program officials to collaboratively decide the next steps required to
         improve Program performance.

                                    Performance
         Program officials should use estimates of the total population within a
         specified radius of new LWCF project sites as a proxy for potential
  2                                                                                 7
         public use, setting separate targets for urban and rural population
         subsets.

         Program officials should establish a long-term output measure of the
  3                                                                                 7
         total acreage protected since inception of the Program.

         Program officials should supplement existing measures of the number
  4                                                                                 8
         of parks enhanced to also report annual results in terms of acreage.

         NPS officials should document the planning assumptions used to set
         performance targets and consult with the OMB examiner to determine
  5                                                                                 8
         whether the Program’s proposed targets are sufficiently ambitious to
         meet OMB’s PART expectations.

         Program officials should provide the OMB examiner evidence that
         supports the performance baseline they asserted for timely processing
  6      of grant applications and of the efficiency gains achieved. Program        9
         officials should also share updated parts of the grants manual and the
         newly developed screening form with the OMB examiner.

         NPS officials should strengthen Program monitoring and develop
  7      performance measures of the percentage of inspections conducted by         9
         NPS and of the average cost per inspection..

         DOI officials should consider strengthening the Program’s
  8                                                                                 10
         maintenance-of-effort requirement.
Number                                 Suggestion                                  Page

                                       Reporting
         Program officials should validate performance targets each year,
         based on the level of funding approved. At the end of the year,
  9      Program officials should compare national results to these targets in      12
         the Program’s annual report and discuss the reasons for any
         significant shortfalls.

         Program officials should work with State representatives to
         standardize the method for estimating unmet needs. The method
  10     should recognize the States’ lead role in setting investment priorities    12
         and also satisfy OMB’s interest in validating the need for continued
         federal funding.

         Program officials should consider States’ needs and performance
  11                                                                                13
         when apportioning discretionary funds.

                              Independent Evaluation
         NPS officials should a) pursue the possibility of a GAO review of the
         Program and b) explore opportunities to include LWCF-supported
  12                                                                                14
         parks in studies of how well the National Park System contributes to
         the achievement of DOI’s recreation objectives.
                    APPENDIX E:
         BENCHMARKING OUTCOME MEASUREMENTS

In an effort to identify an appropriate outcome measure for the Program, we reviewed the PART
measures from three similar grant programs. These programs received PART ratings ranging
from Adequate to Effective and have outcome measures that have been accepted by OMB. The
U.S. Department of Agriculture (USDA) administers two of the programs — the Farmland
Protection Program (also known as the Farm and Ranch Land Protection Program, or FRP) and
the Rural Water and Wastewater Grants and Loans (RWWGL) Program. NPS, itself,
administers the National Historic Preservation (NHP) Program.


Through the FRP, the USDA offers federal assistance to State, tribal, and local governments and
non-governmental organizations to acquire conservation easements to protect agricultural lands
from conversion to other uses, particularly urban development. The long-term outcome measure
for the FRP is the “Percent of FRP farms that remain in active agriculture”. To adopt this
measure for use by the LWCF Program would entail reporting the “Percent of LWCF project
sites that remain in outdoor recreational use”. However, given that such protection is mandatory
under the LWCF Act, the target and results for such an outcome measure should always be 100
percent. This would not be useful to NPS in managing Program performance.


Through the NHP, the NPS works with inter-governmental partners to influence the decisions of
private property owners to preserve historical properties of national significance. According to
OMB, the performance measures for the NHP Program are “…keyed to the outcome of more
historic properties protected outside the National Park System.” On the surface, this would seem
to be analogous to the LWCF Program, with activities keyed to the outcome of more recreation
properties protected outside the National Park System. However, the NHP Program targets
private property, and fewer than 3 percent of NHP properties receive federal protection. Again,
the federal protection automatically afforded under the LWCF Act renders meaningless an
outcome measure of this protection.


Finally, through the RWWGL Program, the USDA seeks to reduce exposure to water-related
health hazards. RWWGL officials have set a goal of serving 5 percent of the target population
each year, to a cumulative long-term goal of serving about 15 million people. On the surface,
this may not seem to be applicable to the LWCF Program, given that its target population is
unrestricted — that is, the general citizenry are the intended beneficiaries. However, assessing
the population served by the Program each year may in fact provide some indication of the
Program’s ability to reach intended beneficiaries and, as stipulated in the DOI Strategic Plan,
“Improve recreation opportunities for America”. Accordingly, we have included a related
suggestion in the “Outcome Measurement” section of our report (see page 7).
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
